No. 19-42

 

 

IN THE

Supreme Court of the Anited States

NORTH CAROLINA UTILITIES COMMISSION,

Petitioner,
v.

FEDERAL ENERGY REGULATORY COMMISSION,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
District of Columbia Circuit

REPLY BRIEF FOR THE PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,148 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 17, 2019.

C1

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
